<html>
<title> - HEARING ON THE NOMINATIONS OF GEORGE APOSTOLAKIS, WILLIAM MAGWOOD, AND WILLIAM CHARLES OSTENDORFF TO BE MEMBERS OF THE NUCLEAR REGULATORY COMMISSION</title>
<body><pre>[Senate Hearing 111-1223]
[From the U.S. Government Publishing Office]




                                                       S. Hrg. 111-1223
 
HEARING ON THE NOMINATIONS OF GEORGE APOSTOLAKIS, WILLIAM MAGWOOD, AND 
  WILLIAM CHARLES OSTENDORFF TO BE MEMBERS OF THE NUCLEAR REGULATORY 
                               COMMISSION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 9, 2010

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 
  
  


       Available via the World Wide Web: http://www.gpo.gov/fdsys
                              _________
                              
                              
                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
 21-231 PDF                 WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                             
                              
       
       
       
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             MIKE CRAPO, Idaho
AMY KLOBUCHAR, Minnesota             CHRISTOPHER S. BOND, Missouri
SHELDON WHITEHOUSE, Rhode Island     LAMAR ALEXANDER, Tennessee
TOM UDALL, New Mexico
JEFF MERKLEY, Oregon
KIRSTEN GILLIBRAND, New York
ARLEN SPECTER, Pennsylvania

                    Bettina Poirier, Staff Director
                 Ruth Van Mark, Minority Staff Director
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FEBRUARY 9, 2010
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     2
Cardin, Hon. Benjamin L., U.S. Senator from the State of Maryland     4
Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     5
Webb, Hon. Jim, U.S. Senator from the State of Virginia..........     6
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     7
Voinovich, Hon. George V., U.S. Senator from the State of Ohio...     9
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    11

                               WITNESSES

Apostolakis, George, nominated to be a Commissioner of the U.S. 
  Nuclear Regulatory Commission..................................    13
    Prepared statement...........................................    15
    Responses to additional questions from:
        Senator Boxer............................................    18
        Senator Inhofe...........................................    20
        Senator Vitter...........................................    23
Magwood, William D., IV, nominated to be a Commissioner of the 
  U.S. Nuclear Regulatory Commission.............................    25
    Prepared statement...........................................    27
    Responses to additional questions from:
        Senator Boxer............................................    29
        Senator Carper...........................................    33
        Senator Inhofe...........................................    35
        Senator Vitter...........................................    38
Ostendorff, William C., nominated to be a Commissioner of the 
  U.S. Nuclear Regulatory Commission.............................    40
    Prepared statement...........................................    41
    Responses to additional questions from:
        Senator Boxer............................................    43
        Senator Inhofe...........................................    45
        Senator Vitter...........................................    48
        
        
        


HEARING ON THE NOMINATIONS OF GEORGE APOSTOLAKIS, WILLIAM MAGWOOD, AND 
  WILLIAM CHARLES OSTENDORFF TO BE MEMBERS OF THE NUCLEAR REGULATORY 
                               COMMISSION

                              ----------                              


                       TUESDAY, FEBRUARY 9, 2010

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m. in room 
406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the committee) presiding.
    Present: Senators Boxer, Inhofe, Voinovich, Alexander, 
Carper, Cardin, Klobuchar, and Merkley.
    Also present: Senator Webb.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody. We all get the star 
of the day awards, because Senator Inhofe and I decided we are 
going to come to work, and we are going to do our job. I really 
want to thank him and his staff. It is nice to see Senator 
Alexander here, Senator Cardin, Senator Carper. And the EPW 
Committee moves forward when others fear to tread.
    So here is here we are. Senator Webb is coming to introduce 
Mr. Ostendorff. Senator Cardin has asked to introduce Mr. 
Magwood. I will introduce Dr. Apostolakis. So I think we are 
going to do this. We are going to do our little opening 
statements, and then we will get to Senator Webb and the 
others. So I will start it.
    We are holding a hearing on the nomination of three 
individuals to be members of the NRC, the Nuclear Regulatory 
Commission. The NRC is an independent agency created by 
Congress to regulate commercial nuclear power plants and the 
use of nuclear materials through licensing, inspection and 
enforcement. By statute, the NRC is charged with protecting 
health and safety and minimizing danger to life and property.
    The Atomic Energy Commission, which was established in 
1946, was the predecessor to the NRC. The AEC was charged with 
both encouraging the use of nuclear power and regulating its 
safety. This dual role created conflicts within the agency, and 
AEC's regulation came under increasing attack for not being 
rigorous enough.
    As a result in 1974 Congress abolished the AEC and created 
the NRC as an independent regulator of commercial nuclear 
power. The promotional work of the AEC was moved to a separate 
agency, which ultimately became the Department of Energy. The 
NRC was created to be a strong, independent regulator.
    I am going to put my whole statement in the record, but I 
do believe that when the President talks about transparency and 
accountability, it is very relevant to regulators like the NRC. 
And I urge the Commission to become even more transparent. We 
know the issues are complicated, but public involvement and 
support in the process is very important.
    I applaud the decision that the Administration made; due to 
the scientific reports, they want to look for another site 
other than Yucca. So we definitely have a lot of work on our 
plate. In addition to its work regulating nuclear waste I 
expect the review of combined construction and operating 
licenses for new nuclear power plants will occupy a good 
portion of the NRC's time.
    Given that the nuclear industry is increasing interest in 
building new nuclear plants I expect the NRC will work very 
hard to ensure that they move forward and that the safety of 
the new plants and the designs of the new plants will never be 
questioned.
    So you also have the job of looking after existing 
facilities. We know some of them, many of them are aging. They 
need license renewals. You have to look at all of those. So I 
think the American public has a right to expect the very best 
public servants in your positions. And I really congratulate 
you on your nominations. I am excited that we can move forward 
on this front.
    With that, I would yield the balance of my time and turn to 
Senator Inhofe.
    [The prepared statement of Senator Boxer was not received 
at time of print.]

          OPENING STATEMENT OF HON. JAMES M. INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman, and I had a 
chance to meet all three of the nominees. I am enthusiastically 
supporting all three of them.
    I was glad to hear that President Obama is now embracing 
nuclear energy as crucial to our energy security and economic 
prosperity. I couldn't agree more. Nuclear energy is plentiful, 
it is cheap, it is safe and it is clean.
    We are all very aware of the national economy, how 
drastically it has changed since the first application for a 
new reactor was filed. That was September 2007. These changing 
economic circumstances forced the U.S. utilities to continually 
assess electricity demand and their options for meeting it. As 
with any other business they must make these decisions in real 
time in response to changing market conditions.
    The NRC is insulated from the challenges of responding to 
those dynamic conditions. Regulatory decisionmaking should not 
be pressured by economic conditions. The NRC's mission to 
ensure safety, however, does not absolve the agency of 
responsibility to regulate in an efficient and predictable 
manner.
    The NRC now has 2 years of experience with reviewing new 
plant applications yet still they have not indicated dates when 
applicants can expect to receive their license. I think this is 
one thing that we will all want to be asking you, is how 
quickly can we move. Things do tend to go slowly in Government. 
As we get new nominees in, that will be running things, I hope 
they will concentrate on getting things done rapidly.
    I can remember it was 1997 when I first became chairman of 
the subcommittee called the Clean Air Subcommittee that had 
jurisdiction over the then-NRC. At that time, it had been 8 
years, 8 years since we had had an oversight hearing. So we 
started having oversight hearings every other month with 
expectations, with guidelines as to what should be expected. 
That is what I think we will do, and that is what I want to get 
to this morning, to see what we can do to speed these things 
along with these new applications. The Chairman mentioned the 
renewals. But we also have new applications which we want to 
move along rapidly.
    So the time is right. I am glad we all weathered the storm 
to get here and get you guys confirmed.
    Thank you, Madam Chairman.
    [The prepared statement of Senator Inhofe follows:]

                  Statement of Hon. James M. Inhofe, 
                U.S. Senator from the State of Oklahoma

    Thank you, Chairman Boxer, for holding this hearing. All 
three nominees are of high caliber and will make outstanding 
contributions to the Nuclear Regulatory Commission.
    I was glad to hear that President Obama has finally 
embraced nuclear energy as crucial to our energy security and 
economic prosperity. I couldn't agree more. Nuclear energy is a 
safe, clean source of energy that should play a central role in 
strengthening America's energy security.
    We are all very aware that the national economy has changed 
drastically since the first application for a new reactor was 
filed in September 2007. These changing economic circumstances 
force U.S. utilities to continually assess electricity demand 
and their options for meeting it. As with any other business 
they must make these decisions in real time in response to 
changing market conditions.
    The NRC is insulated from the challenges of responding to 
those dynamic conditions. Regulatory decisionmaking should not 
be pressured by economic conditions. The NRC's mission to 
ensure safety, however, does not absolve the agency of the 
responsibility to regulate in an efficient and predictable 
manner.
    The NRC now has 2 years of experience with reviewing new 
plant applications, yet it still has not indicated dates when 
applicants can expect to receive their licenses. How can you 
budget and allocate resources if you don't know how long 
application reviews will take? How can you evaluate performance 
without a schedule to measure against?
    Granted, it's been decades since the NRC has licensed new 
plants. There have been hiccups and will likely be more as 
everyone gains experience with the process. The agency, 
however, should not hide behind that excuse in order to avoid 
taking responsibility for establishing a transparent, 
predictable schedule and managing accordingly.
    My question is simply this: If the agency doesn't have 
confidence in its own process and ability to manage it, why 
would stakeholders? As commissioners, each of you will be 
responsible for the leadership of this agency. I hope you will 
all strive to make this process more predictable so that the 
agency is viewed as an effective regulator, not as an obstacle 
to building new nuclear plants.
    I also hope each of you, should you be confirmed, will keep 
a safety focused mindset in assessing the matters that come 
before you. The natural inclination of a regulator is to 
regulate more. That tendency requires increased resources from 
both the industry, to comply, and from the regulator to develop 
regulations and monitor compliance. Neither the industry nor 
the agency has unlimited resources. It is the Commission's 
responsibility to ensure that the agency remains safety focused 
and that resources are dedicated to issues of the highest 
impact to safety.
    Congress intended that the Commission function as a 
collegial body in its mission to protect public health, safety, 
and the environment. It certainly functions best with the full 
complement of five commissioners. It is my hope that the 
committee and then the full Senate will soon complete its 
consideration of these nominees and fill the Commission because 
the Commission has plenty of work to do, and we need to ensure 
the agency has its full measure of leadership.

    Senator Boxer. Senator, thank you. I wanted to mention our 
other nominees from TVA; they asked to continue this to after 
the new snowfall. So as I understand it, that will not be 
happening this week, on their request. They expect big snows, 
and they asked us to cancel.
    Senator Alexander. Well, Madam Chairman, two of them are 
here. They flew up on the plane with me this morning, and their 
families are coming, too.
    Senator Boxer. I guess we could do those, too, then, if you 
wish. I am happy to do those, too. But we might want to do that 
today, because I am very fearful about what is coming tonight 
and tomorrow. So can you get in touch with them, Senator?
    Senator Alexander. I can try. I don't want to substitute my 
judgment for theirs or yours on this, but I just know they are 
here.
    Senator Boxer. Well, I was told that the nominees had asked 
that it not go forward. But if there are two here with their 
families, I think we ought to hear from them.
    Why don't we do this. Why don't we go through where we are, 
I will come and talk with you in the room out there, and we 
will figure out a way to get in touch with them.
    Senator Alexander. Thank you, Madam Chair.
    Senator Boxer. They may not ever be able to get home, if 
they don't get home tonight.
    Senator Inhofe. Maybe this afternoon we could hear from 
them.
    Senator Boxer. Yes, I was thinking maybe this afternoon's 
hearing.
    Senator Carper. Madam Chair, Laura Haines, who is sitting 
right behind me, says that she believes the two nominees that 
may have flown up with Senator Alexander may be flying home as 
we speak.
    Senator Boxer. We will check this out. I live six blocks 
away. So I can get here in any blizzard.
    Senator Carper. Maybe we could do this at the airport.
    [Laughter.]
    Senator Boxer. We could do this at the airport. Right. That 
is good.
    Well, we will figure this all out. But getting back to our 
nominees who are here, and our wonderful Senator who has joined 
us to do an introduction, let's move forward with Senators 
Cardin, then Alexander, then Carper, then Voinovich.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, let me thank you very much for 
holding this hearing this morning. I want to thank all the 
witnesses for being here and for their willingness to serve on 
the Nuclear Regulatory Commission.
    The Nuclear Regulatory Commission was established in 1974 
as an independent agency protecting the health and safety and 
minimizing danger to life or property. We have three of the 
nominees before us today. Considering it is a five-member 
commission, the three of you will have a major impact on the 
future decisions related to nuclear power in this country. So I 
think this hearing is particularly important. We depend upon 
the independent oversight authority that you have to provide 
accountability that this Nation deserves.
    There may be different views among members of the U.S. 
Senate as to the future use of nuclear power in our energy 
policy. But regardless of one's view, I think we all agree that 
we want a strong, independent oversight agency. And we very 
much depend upon the Commission to provide that.
    I am a proponent of nuclear power. I believe that we need 
to be more aggressive in the use of nuclear power in the United 
States to lessen our dependence on carbon-based electricity 
generation. The NRC has a record number of applications in 
front of it. The President has just announced his plan to 
increase the guaranteed loan for the industry to a record 
amount.
    So I think we stand on the cusp of a nuclear renaissance. 
But to make that promise a reality we need a Commission that is 
fully staffed and hard at work. That is why I am particularly 
pleased, Madam Chair, that we have this hearing today to deal 
with the three nominees that are before us. I look forward to 
their testimony and I look forward to working with the 
Commission in the best interests of the United States.
    Senator Boxer. Thank you.
    Senator Alexander.

          OPENING STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Madam Chair.
    The Chair has heard me express over the last year my 
concern that the United States is pursuing what looks like a 
national windmill policy, which is the energy equivalent of 
going to war in sailboats. However, I want to congratulate 
President Obama for the last couple of weeks of leadership that 
he has shown on nuclear energy. The President's view is 
terribly important here because the Government is not going to 
build these plants. The utilities are going to build them, and 
the ratepayers are going to pay for them. So it is up to the 
President and all of us to try and create an environment in 
which that can happen.
    Senator Webb and I have co-sponsored legislation to try and 
create an environment in which we could double nuclear power 
production in the United States as well as encourage other 
forms of clean energy. So the President's statement in the 
State of the Union address about a new generation of nuclear 
power, his support for $54 billion of loan guarantees, the 
quality of the three Commission members who are before us, 
unless I really completely miss my bet, I think it would be 
difficult for the President to find three better nominees for 
this position, people who are experienced, who will make sure 
the plants are safe, but who see the value of them to our 
country.
    The quality of the appointees of the President's Commission 
members to the new Commission on what we do with used nuclear 
fuel is excellent and should be also an encouraging sign. And 
of course Dr. Chu's advocacy and leadership over the last year 
all add up to several steps that we are taking to getting us 
back into the ball game. We have a way to go. Senator Webb and 
I in our bill make the loan guarantees technology neutral so 
that any clean energy can do that. I would like for our 
subsidies and policies and the renewable energy standards all 
to be low carbon standards so that we let the marketplace pick 
and choose among the available forms of energy.
    But I am very pleased to be here and to be here with these 
three nominees. I look forward to asking some questions. At a 
time when China is starting a new nuclear plant every 3 months, 
Japan is a third nuclear power, France is 80 percent, even the 
UAE is building nuclear power plants or making plans to. The 
United States, who invented the technology, should create an 
environment in which we take our invention and use it for our 
own benefit. I can think of nothing more important to job 
creation than lots of low cost, clean, reliable nuclear energy. 
I hope these three Commissioners will help create an 
environment where that happens, and I commend the President for 
his nominees and his other actions.
    Senator Boxer. Thank you.
    I understand that Senator Webb has to leave shortly. He is 
here to introduce Mr. Ostendorff. So if Senator Carper wouldn't 
mind yielding to Senator Webb, and then we will get right to 
you. But I understand, Senator Carper, you had a relevant 
announcement to make.
    Senator Carper. A question first for Senator Webb. Do you 
recall what you were doing 64 years ago today?
    Senator Webb. Not specifically, but my mother, I think, 
still has a recollection.
    [Laughter.]
    Senator Carper. I just want to thank our witnesses, and our 
nominees and everybody present for joining us for the 
celebration of the 64th anniversary of the birth of Senator 
Webb. Congratulations.
    [Applause.]
    Senator Boxer. Congratulations, Senator Webb. Happy 
birthday.
    Now that we have thoroughly embarrassed you, the honor of 
introducing Mr. Ostendorff falls on your shoulders. So go 
ahead.

              OPENING STATEMENT OF HON. JIM WEBB, 
            U.S. SENATOR FROM THE STATE OF VIRGINIA

    Senator Webb. Thank you, Madam Chairman. I will see if I 
can find my place in my notes here, after that. Also, Ranking 
Member Inhofe and members of the committee, it is with a great 
deal of pleasure that I am introducing William Charles 
Ostendorff and also giving him my strongest recommendation here 
to become a Commissioner of the Nuclear Regulatory Commission.
    As Senator Alexander so aptly stated, I am one of those who 
believe it is critical that the United States accelerate its 
deployment of nuclear energy. And doing so will require 
effective leadership and cooperation at the Nuclear Regulatory 
Commission. I am very pleased to have discussed this 
proposition with a number of members of this committee. I 
believe the bill that Senator Alexander and I introduced at the 
end of last year is achievable, measurable and good for the 
country.
    In that respect, Mr. Ostendorff has clearly demonstrated 
the skills and experience necessary for this position. He has 
had an exceptional career in the Navy, in the Department of 
Energy, the Congress and at the National Academies. I would say 
again, Madam Chair, given the fact that it is my birthday, it 
is merely a coincidence that Mr. Ostendorff and I both went to 
the Naval Academy and both went to Georgetown Law School. We 
probably didn't go to the same Naval Academy. The disparity in 
the academic areas of the Naval Academy while we were there 
were pretty dramatic between the people who went into the 
Marine Corps and the people who went into the nuclear power 
program. We all were required to obtain an engineering degree. 
But those of us who were on the Marine Corps side, we used to 
carve into our desks, ``Entropy is alive and living in 
Argentina.'' But the people who were on Mr. Ostendorff's side 
actually understood what entropy was.
    He also served on six different submarines. I could say I 
had a pretty hard infantry tour in Vietnam, but you could not 
have put a gun to my head and made me go in a submarine. Six 
different times, including command of the USS Norfolk attack 
submarine. Among other accomplishments in the Navy, he 
commanded 1,200 men and women of Submarine Squadron Six based 
in Norfolk, Virginia. Then after retiring from the Navy, Mr. 
Ostendorff joined the Strategic Forces Subcommittee of the 
House Armed Services Committee, serving as counsel and staff 
director with oversight responsibilities of various Department 
of Energy activities. And after Senate confirmation in 2007 he 
became Principal Deputy Administrator of the National Nuclear 
Security Agency where he served until 2009, at which time he 
became Director of the Committee of Science, Engineering and 
Public Policy at the National Academies.
    The range and breadth of this experience I think make him 
superbly qualified to serve as Commissioner of the Nuclear 
Regulatory Commission. He and his wife, Chris, who is a special 
education teacher, are now residents of Oakton, Virginia. She 
is here today, as are two of your three children, if they would 
like to stand. Daughter Becky is an attorney in New York City, 
one son, Chuck is an Army captain, who deployed to Iraq with 
the Second Stryker Cavalry Regiment and is now stationed at 
Fort Sill, Oklahoma, and son Jeff is a student at Marymount 
here in Arlington, Virginia.
    With that, Madam Chair, members of the committee, I look 
forward to his confirmation and to working with him and others 
as we move into a new era of nuclear energy development in our 
country. Thank you very much.
    Senator Boxer. Senator, thank you. I know that you have to 
leave us, but we do wish you a happy birthday.
    Senator Carper.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Madam Chair. Let me say to our 
witnesses, welcome. It is nice to see each of you again. Thank 
you not just for showing up today, but showing up all those 
years of your lives and preparing yourselves for this potential 
assignment.
    Dr. Apostolakis, Mr. Magwood, Captain Ostendorff, when you 
are introduced to speak, you may want to, if you have family 
members who are here, you may want to introduce them and let us 
say hello to them as well as you begin your remarks.
    Like Senator Alexander, I am impressed by the technical 
breadth and the depth of these three nominees. Really, the 
complementary set of skills that they would each bring to the 
Commission if confirmed. The word synergy is oftentimes used. I 
think we have some real synergy here in terms of the potential 
that each of you bring collectively to the Commission.
    As Chairman of the Senate Clean Air and Nuclear Safety 
Subcommittee ensuring that the nuclear power industry functions 
safely is a top priority of mine. I expect and the public 
expects that the NRC must be a strong, independent and 
effective regulator, a regulator that acts firmly, a regulator 
that acts decisively, a regulator that acts openly and 
transparently, a regulatory that produces results and is worthy 
of the public's confidence. In sum, the NRC must ensure our 
Nation's health, our safety and security and the protection of 
the environment.
    I am tempted to say we cannot afford any mistakes. 
Actually, we all make mistakes. I think it was Richard Nixon 
who used to say the only people who don't make mistakes are the 
people who don't do anything. We make mistakes in the work that 
we do here in the Senate, and I am sure mistakes are made at 
the NRC and at the nuclear power plants that they regulate. 
What we can't afford are mistakes that will derail this 
renaissance in nuclear power. What we can't afford are mistakes 
that are made and covered up at nuclear power plants. What we 
can't afford are mistakes that are made again and again and 
again, because no one has reported them and actions haven't 
been taken to correct those mistakes.
    But as you note, we have many challenges before us, 
including ensuring that our current fleet continues to operate 
safely while reviewing applications to build new reactors. And 
I might add also we have a bunch of nearly 40-year-old power 
plants that are already in the queue for being reviewed and 
hopefully have their lives extended for another 20 years, if 
they merit that.
    But if you all are confirmed, and I hope you will be, each 
of you will be in a role of the utmost importance, requiring 
the highest level of public trust. I want to thank you for 
being here, not just for your willingness to serve your 
country, but I think each of you have already served your 
country in a wide range of ways. And we are happy that you are 
willing to serve your country again. I want to express our 
thanks to your families, some of whom are here, some of whom 
are not, for their willingness to share you with the rest of us 
in this country in the years to come.
    What I hope to hear from each of you is a strong statement 
of your commitment to making the NRC, which is already a great 
place to work, best in the Federal Government, not only making 
the NRC a great place to work, but a strong and impartial 
regulator.
    I will close with this. Sometimes I think of your roles as, 
just imaging driving a car, something most of us do. We have 
two feet and a we move to a renaissance in nuclear energy, we 
need one foot on the accelerator, to make sure that we move 
forward expeditiously to realize this dream, this vision. And 
we need another foot tapping that brake when it is appropriate. 
There are plenty of people with their foot on the accelerator, 
including some of us. We need to make sure we have somebody 
there responsibly tapping that brake when it needs to be 
tapped. Thank you very much for your willingness to play that 
role.
    Thank you.
    Senator Boxer. Thank you very much, Senator.
    Senator Voinovich.

        OPENING STATEMENT OF HON. GEORGE V. VOINOVICH, 
              U.S. SENATOR FROM THE STATE OF OHIO

    Senator Voinovich. Thank you, Madam Chairman and Ranking 
Member Inhofe, for holding this hearing today. I would like to 
welcome the nominees today and their families.
    Madam Chair, as you know I have spent the better part of 
the last 10 years in the Senate involved in shaping nuclear 
energy policy for this country, mainly as Chairman and the 
Ranking Member on the Senate's Clean Air and Nuclear Safety 
Subcommittee. We focused a great deal of time and effort on the 
committee Chair on the oversight of the Nuclear Regulatory 
Commission to make sure it was doing its job of ensuring the 
safety and security of our Nation's nuclear power plants.
    I take pride in the fact that this committee has 
transformed the Nuclear Regulatory Commission into one of the 
best and most respected regulatory agencies in the world. We 
worked very hard placing the right people on the Commission, 
providing the Commission with the resources and tools necessary 
to do its job, and holding them accountable for results. We 
held over 20 productive hearings involving the NRC over the 
last 8 years. So it is no accident that we have seen a dramatic 
improvement in both the safety records and reliabilities of the 
104 operating reactors today compared to a decade ago.
    I would like to take this opportunity to thank and 
recognize each of the existing members of the Commission, 
Chairman Jaczko, Commissioner Svinicki and soon-departing 
Commissioner Klein, and all the other Commission members that 
have served with great distinction. Being a regulator often is 
a thankless job, whether it is the NRC, FAA, FDA. It seems as 
though the only time people care about what you do is when 
something goes wrong, and it almost always easy to criticize 
what you did.
    Indeed, a regulator's job is a complex and difficult one. 
NRC has to be vigilant at all times, keeping its regulatory 
threshold just right. It should be rigorous enough to prevent 
complacency from setting in both within the agency and the 
industry it regulates, and we have seen that several years ago, 
but not overly restrictive to a point of stifling the growth of 
nuclear power in this country at a time when we need it most. 
And our country does need nuclear power and the jobs, the 
energy security, and the environmental benefits it provides. I 
tell people that nuclear power is a three-fer: it provides 
base-load electricity, it is emission-less, and offers 
environmental benefits, jobs and reliable energy.
    With President Obama's recent call for increased use of 
nuclear power in his State of the Union Address and the DOE's 
Energy's fiscal year 2011 budget request for an additional $36 
billion for nuclear loan guarantees I think that the momentum 
is building, and the policy environment in the United States is 
shifting itself for the long awaited growth in nuclear power. 
Senator Carper and I have been talking about the nuclear 
renaissance for some time, haven't we, Senator? You guys are 
coming in at the right time.
    But I think this is important; having a fully staffed NRC 
Commission is paramount to maintaining our safety goals. And is 
not just our large, existing light water fleet, but the new 
light water reactors, modular reactors, and even Generation-IV 
reactors. Upon their successful confirmation these new 
Commissioners will become part of what I believe will be the 
busiest Commission in decades. They will likely oversee real 
movement in the U.S. nuclear renaissance. I believe these 
nominees are exceptional individuals, all leaders on nuclear 
technology issues, and they have the depth and breadth of 
experience necessary to successfully lead the Nation's 
commercial nuclear industry. Their dedication and 
professionalism will be needed now more than ever. I wish you 
all very, very well. I am not going to be around after the end 
of this year; well, I will be around, but I am not going to 
have this job.
    [Laughter.]
    Senator Voinovich. I will tell you that I am going to be 
watching the Commission and doing everything on the outside to 
promote the nuclear industry in this country.
    Thank you, Madam Chair.
    [The prepared statement of Senator Voinovich follows:]

                Statement of Hon. George V. Voinovich, 
                  U.S. Senator from the State of Ohio

    Thank you, Madam Chairman.
    Chairman Boxer, Ranking Member Inhofe, thank you for 
holding this hearing. I would like to welcome the nominees, and 
I look forward to hearing their testimony.
    Madam Chairwoman, as you know I have spent the better part 
of the last 10 years in the Senate involved in shaping nuclear 
energy policy for this country, mainly as Chairman or Ranking 
Member on the Senate's Clean Air and Nuclear Safety 
Subcommittee. I focused a great deal of time and effort as the 
committee Chair on oversight of the Nuclear Regulatory 
Commission (NRC) to make sure it was doing its job of ensuring 
the safety and security of our Nation's nuclear power plants.
    Mrs. Chairman, I take great pride in the fact that this 
committee has transformed the Nuclear Regulatory Commission 
into one of the best and most respected regulatory agencies in 
the world. We have worked very hard placing the right people on 
the Commission, providing the Commission with the resources and 
tools necessary to do its job, and holding them accountable for 
results. We held more than 20 productive hearings involving the 
NRC over the past 8 years.
    So it is no accident that we have seen dramatic 
improvements in both the safety records and reliability of the 
104 operating reactors today compared to a decade ago. And I 
would like to take this opportunity to thank and recognize each 
of the existing members of the Commission--Chairman Jaczko, 
Commissioner Svinicki, and the soon departing Commissioner 
Klein--for doing a great job day in and day out. Being a 
regulator often is a thankless job whether it is the NRC, FAA, 
FDA, or the Federal Reserve Board. It seems as though the only 
time people care about what you do is when something goes 
wrong--and it almost always is to criticize what you did or 
didn't do.
    Indeed, a regulator's job is a complex and difficult one. 
NRC has to be vigilant at all times to keep its regulatory 
threshold just right--it should be rigorous enough to prevent 
complacency from setting in both within the agency and the 
industry it regulates but not overly restrictive to a point of 
stifling the growth of nuclear power in this country at a time 
when we need it the most. And our country does need nuclear 
power--and the jobs, the energy security, and the environmental 
benefits it provides. I like to tell people nuclear is a three-
fer: without it we will not be able to provide the reliable, 
base-load electricity our country demands. Without it we will 
not be able to reach our goal of reducing carbon emissions. And 
without it we will not be able to strengthen our manufacturing 
bases and create good paying jobs.
    With President Obama's recent call for increased use of 
nuclear power in his State of the Union Address and the DOE's 
fiscal year 2011 budget request for an additional $36 billion 
for nuclear loan guarantees I think that momentum is building 
and the policy environment in the United States is shifting 
itself for the long awaited growth in nuclear power.
    Which is why I think today's nomination hearing is so 
important. Having a fully staffed NRC Commission is paramount 
to maintaining our safety goals--and not just with our large 
existing light water fleet but with new light water reactors, 
modular reactors, and even Generation-IV reactors. Upon their 
successful confirmation these three new Commissioners will 
become part of what I believe will be the busiest Commission in 
decades--as they will likely oversee real movement in the U.S. 
nuclear renaissance. I believe these nominees are exceptional 
individuals, all leaders on nuclear technology issues, and they 
have the depth and breadth of experience necessary to 
successfully lead the oversight of our Nation's commercial 
nuclear industry. Their dedication and professionalism will be 
needed now more than ever. I wish them well and look forward to 
working with them in my time remaining here in the Senate.
    Thank you, Madam Chairman, and I look forward to hearing 
from our distinguished nominees.

    Senator Boxer. Thank you so much.
    Senator Klobuchar, and then we are going to get right to 
our panel.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much, Madam Chair, and 
thank you for holding this hearing. My other hearings today 
were canceled, except for Environmental Protection. My staff 
remarked it was only the Senator from California who would 
decide to hold this hearing.
    Senator Boxer. And the Senator from Oklahoma.
    Senator Klobuchar. And the Senator from Oklahoma. I finally 
decided, I once was snowed in in Yosemite Park, so I know you 
are used to snow. And Oklahoma is used to its share of bad 
weather. So I thank you, from the State of Minnesota, for doing 
this, where things would have been working a little more easily 
in our State with this storm. But it is what it is.
    I am pleased you have convened this hearing, as my 
colleagues have said, and congratulate the three of you. You 
certainly, as Senator Voinovich noted, are coming in at an 
exciting time for nuclear energy. There is just so much 
interest all over this country. As was noted the President 
called for a tripling of the Department of Energy's loan 
guarantee program for nuclear energy, from $18 billion to $54 
billion. We have Senators Gary, Graham and Lieberman working on 
our bipartisan energy bill, which sees nuclear as a major 
focus. We know that the rest of the world is moving to a low 
carbon economy, and nuclear energy will be a major part of 
that.
    This nuclear renaissance means America has an opportunity 
to lead the world in developing new technologies to deal with 
the problems at hand, which include plant safety and waste 
storage and disposal and issues regarding security in the 
proliferation of nuclear material. This last April, I was in 
Japan with Senator McCain and Senator Graham. We visited one of 
the nuclear facilities there. I was able to see first-hand a 
lot of the advancements that have been made in other countries. 
So I am looking forward to us doing the same, and in fact 
taking more of a leadership role.
    I am excited about what you are doing. I am looking forward 
to hearing from you today. We know this is not an easy road. 
But you are coming in at a time where for the first time you 
see much more unity behind this idea of moving forward with 
nuclear. Congratulations on your nominations, and I look 
forward to hearing from you. Thank you.
    Senator Boxer. Thank you so much.
    An update on TVA. Senator Alexander and I are going to work 
together on this; Senator Inhofe has stated whatever we decide 
is good. Right now what we are going to do is, if anyone is 
remaining in Washington, our goal would be to hold a hearing 
around 5 o'clock at the latest, if they are here. If they have 
gone home, obviously they have gone home. But if they are stuck 
here, we will accommodate them.
    I do not want to do it tomorrow because our understanding 
is it is going to be very difficult to get here. So it will 
either be 5 o'clock tonight, or we will put it off until the 
week after recess.
    I am going to introduce Dr. George Apostolakis. Then 
Senator Cardin is going to introduce Mr. Magwood, and we are 
going to get started.
    Dr. Apostolakis is a professor of nuclear science and 
engineering and a professor of engineering systems at MIT. He 
is also a member of the Nuclear Regulatory Commission's 
Advisory Committee on Reactor Safeguards, which advises the 
Commission on technical matters related to the safety of 
nuclear reactors. Prior to becoming a professor at MIT he was a 
professor at the University of California Los Angeles, in my 
home State. He received his Ph.D. in engineering science and 
applied mathematics from the California Institute of 
Technology. Dr. Apostolakis' research and his teaching 
interests are focused on risk assessment and risk management in 
the nuclear industry.
    And Doctor, you are joined today, I understand, by your 
wife, Victoria. Victoria, would you like to stand? We welcome 
you very much. Thank you for making the trip. We want to 
welcome you, sir, and I look forward to a speedy confirmation 
of all our panel.
    We will go next to Senator Cardin.
    Senator Cardin. Madam Chair, thank you very much. It is my 
honor to introduce Bill Magwood. But first let me thank all 
three of the nominees. Each of you shares an extraordinary 
background and a commitment to public service. We thank you. We 
know it is a sacrifice not only for you but for your families. 
We thank your family members for sharing in the sacrifice of 
public service. We welcome all three of you to our committee.
    I am really honored to introduce a fellow Marylander, Bill 
Magwood. Mr. Magwood lives in Colesville, Maryland. He has 
lived there since 1989. He has been a resident of Montgomery 
County for more than 20 years, coinciding with his service to 
the Federal Government and several industry organizations 
devoted to nuclear energy policy. He was the longest serving 
head of the United States Civilian Nuclear Technology program, 
serving two Presidents and five Secretaries of Energy, from May 
1998 until he stepped down on May 24th, 2005. Since then, he 
has been in the private sector. So he gives us both the 
governmental experience and the private sector experience in 
nuclear energy.
    As the Director of Nuclear Energy with the U.S. Department 
of Energy, Mr. Magwood was the senior nuclear technology 
official in the U.S. Government and the senior nuclear 
technology policy advisor to the Secretary of Energy. From 1984 
to 1994 he managed electric utility research and nuclear policy 
programs at the Edison Electric Institute in Washington, DC. He 
was a scientist at the Westinghouse Electric Corporation in 
Pittsburgh.
    Mr. Magwood holds a B.S. degree in physics and a B.A. 
degree in English from Carnegie Mellon University. He also 
holds an MFA degree from the University of Pittsburgh, my alma 
mater. Mr. Magwood has been a staunch proponent of nuclear 
power technology in the United States. Among other efforts he 
led the creation of the Nuclear Power 2010 initiative, which 
remains the cornerstone of this Nation's new nuclear power 
plant efforts.
    I think it is critical to have Mr. Magwood's type of 
experience at the Regulatory Commission. I know that he will 
take that experience and use it in the best interests of the 
United States, providing the type of oversight that is needed. 
During today's hearing we will hear from Mr. Magwood about his 
intents to change his role from that of an expert industry 
proponent to that of an expert industry overseer.
    Mr. Magwood, welcome, and we thank you very much for your 
public service.
    Senator Boxer. Thank you all, and we will start with Dr. 
Apostolakis.

STATEMENT OF GEORGE APOSTOLAKIS, NOMINATED TO BE A COMMISSIONER 
           OF THE U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Apostolakis. Chairman Boxer, Ranking Member Inhofe and 
committee members, it is an honor to appear before you today as 
President Obama's nominee for the Nuclear Regulatory 
Commission. I will first tell you a few things about myself, 
and then I will offer a few thoughts about my role as a 
Commissioner, if confirmed.
    Before I start, I would like to acknowledge the presence of 
my wife, Victoria.
    I came to the United States from Greece in 1969 to get my 
Ph.D. at the California Institute of Technology in Pasadena, 
California. In 1973 I was granted the degree and joined the 
UCLA School of Engineering, where I went through the ranks of 
assistant, associate and full professor. I became an American 
citizen in 1979. In 1995, I moved to the Massachusetts 
Institute of Technology in Cambridge, Massachusetts, where I am 
currently Professor of Nuclear Science and Engineering and 
Professor of Engineering Systems.
    My broad research area is the development of models for 
risk assessment of large technology systems, primarily nuclear 
power plants. I have served on numerous peer review committees 
for risk assessment performed for the NRC, NASA and national 
laboratories.
    I have received several awards from the American Nuclear 
Society and the Society for Risk Analysis. I was elected to the 
National Academy of Engineering in 2007.
    An important development in my career that is relevant to 
my nomination is my appointment to the NRC's Advisory Committee 
on Reactor Safeguards, ACRS, in 1995. This statutory committee 
advises the Commissioners on technical matters related 
primarily to the safety of nuclear reactors. I chaired the ACRS 
in the period 2001-2002. I have been chairman of the 
subcommittee on Reliability and Probabilistic Risk Assessment 
continuously since 1995. At various times, I have also chaired 
the subcommittees on Human Factors and on Digital 
Instrumentation and Control.
    This experience has been very valuable to me. I have 
appreciated the dedication and professionalism of the NRC 
staff. I have also appreciated the value of conducting all ACRS 
meetings in public and interacting with all stakeholders.
    I have seen the diverse technical issues that the agency 
must deal with on a routine basis. I have also been afforded 
the opportunity to influence the staff's technical work. I am 
particularly proud of the contributions I made to the agency's 
efforts to risk inform its regulations that led to the landmark 
regulatory guide 1.174 and to successfully risk inform 
initiatives such as the risk informed in-service inspection 
program.
    If confirmed I look forward to applying my academic 
expertise as well as the experience from the ACRS to regulatory 
and policy matters before the Commission. However, I fully 
realize that the Commission's role is different from that of 
the ACRS. If confirmed I intend to commit myself to help the 
Commission fulfill its mission to license and regulate the 
Nation's civilian use of byproduct, source and special nuclear 
materials, to ensure adequate protection of public health and 
safety, promote the common defense and security and protect the 
environment.
    I believe that the increased use of risk information serves 
the agency in several respects. It improves safety and makes 
the regulatory process more transparent, thus enhancing public 
confidence in the Commission. It also promotes regulatory 
predictability and stability, which are very important to all 
stakeholders.
    I believe that the NRC is the premiere nuclear regulatory 
agency in the world. If confirmed I will make every effort to 
make sure it remains so.
    Thank you for the opportunity to appear before you today. 
If confirmed I look forward to working with this committee and 
to dealing with the challenges that the NRC will face across 
all areas of its responsibilities.
    [The prepared statement of Mr. Apostolakis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    
    Senator Boxer. Thank you very much, sir.
    Mr. Magwood.

    STATEMENT OF WILLIAM D. MAGWOOD, IV, NOMINATED TO BE A 
     COMMISSIONER OF THE U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Magwood. Thank you, Chairman Boxer. It is a pleasure to 
be here today to speak with you about my nomination. It is an 
honor to appear before this panel. I have worked with some of 
you and some of your staffs over the years on other matters. I 
look forward to working with you regarding the Nuclear 
Regulatory Commission.
    Before I begin I would like to recognize the service of 
Edward McGaffigan, whose term I have been nominated to 
complete. Commissioner McGaffigan was a strong, independent 
voice on the Nuclear Regulatory Commission for more than 11 
years. His commitment, passion and intellect have set a very 
high standard for all public servants, and if confirmed I will 
always view his example as one to emulate.
    I would also like to thank Senator Cardin for his 
introduction. He did such a wonderful job of talking about my 
background, I think I will give you a little bit different 
perspective about my background. Rather than talk about my 
academic background and work background, I wanted to let you 
know I appear you today as a grandson of a man who worked in 
the coal mines of West Virginia and the steel mills at 
Pittsburgh. My father worked for the Postal Service, and for 
many years he also held a night job to make sure he could 
provide for our family. My mother was what they call now a stay 
at home mom. She was the lady in the neighborhood other kids 
came to when they needed help and their own mothers weren't 
close by. From her I learned to do the right thing even when 
the right thing wasn't easy. And from my father I learned hard 
work and personal responsibility.
    More than anything else I say today you should know that 
these are the values I offer to the position to which I have 
been nominated.
    While my parents have passed away and can't be here today I 
am very pleased that my uncle, Clarence Magwood, is here today 
with his wife, Willa Mae. I thank them for coming across the 
treacherous roads to join me today. I am also joined by my 
lifelong friend, Kevin Burrell, who is employed at the State 
Government of Pennsylvania. He drove all the way from 
Harrisburg to be here today, and I appreciate that. By the way 
our mothers insist that we first met in baby carriages.
    And last, but certainly not least, I am very pleased that 
my spousal unit is also here. I thank her for not taking a 
swing at me when I told her I was going back into Government 
service.
    After I stepped down from the Department of Energy in May 
2005 I looked back and was very proud of the accomplishments my 
organization had. We showed innovation, integrity and many 
accomplishments. We had launched and conducted advanced energy 
research in many areas. We created an enduring international 
framework for multilateral research cooperation. We established 
a new civilian nuclear technology focused national laboratory 
in Idaho, and we spurred a quadrupling of the number of 
students pursuing nuclear technology disciplines in U.S. 
colleges and universities, including programs at historically 
black colleges.
    But perhaps the most important aspect of my 
responsibilities at DOE was the management and safety oversight 
of the expansive nuclear infrastructure that included two large 
research reactors and thousands of workers. I saw it as my 
personal responsibility to set a very high standard for safety. 
No matter the cost or impact on programs, I would and did order 
stand-downs at DOE sites when I was not satisfied with the 
level of safety. In one case safety considerations led me to 
terminate a longstanding DOE program. This was a very 
controversial, expensive and disruptive decision. But I felt 
then and I feel now that nothing is more important than taking 
clear and responsible action in the face of any question of 
worker and public safety.
    My past experience provides me with a deep understanding of 
the management and operation of nuclear power plants, nuclear 
fuel facilities, medical and educational facilities, waste 
treatment and disposal facilities and may other areas for which 
NRC must provide effective regulation. Because of my experience 
I firmly believe that maintaining uncompromisingly high levels 
of safety is the first and most important job of any 
organization that handles nuclear materials. I look forward to 
bringing these high expectations to the work of the Nuclear 
Regulatory Commission.
    Chairman Boxer, I believe that public service is a very 
great honor and a great responsibility. If confirmed it will be 
my purpose to work closely with my colleagues here at the table 
today and the other Commissioners to fulfill my new mission 
with a singular focus on the interest of the American people, 
doing business in a manner that earns the public's trust, and 
always doing the right thing, even when the right thing isn't 
easy.
    With that I thank you for your attention and look forward 
to answering your questions.
    [The prepared statement of Mr. Magwood follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
        
    Senator Boxer. Thank you so much, Mr. Magwood.
    Mr. Ostendorff.

     STATEMENT OF WILLIAM C. OSTENDORFF, NOMINATED TO BE A 
     COMMISSIONER OF THE U.S. NUCLEAR REGULATORY COMMISSION

    Mr. Ostendorff. Chairman Boxer, Senator Inhofe, members of 
the committee, I want to thank you for this opportunity to 
appear before you today.
    I am honored to have been nominated by President Obama to 
serve on the Nuclear Regulatory Commission. I am also 
privileged to be in the company of my fellow NRC nominees, 
George Apostolakis and Bill Magwood, and look forward to the 
possibility of working with both if confirmed.
    I would like to thank Senator Webb for his kind 
introduction. Also I want to thank my family, especially my 
wife, Chris, for their encouragement and support over many 
years.
    If confirmed I look forward to working closely with members 
of this committee and their respective staffs to carry out the 
duties of a Commissioner. The Commission's mission--to license 
and regulate the Nation's civilian use of nuclear materials, 
ensure adequate protection of public health and safety, to 
promote the common defense and security, and to protect the 
environment--is critical to our country. The Nation is 
currently fortunate to have a highly talented and dedicated 
staff at the Nuclear Regulatory Commission to carry out its 
strategic goals of ensuring safety and security of commercial 
nuclear facilities.
    I will tell the members of the committee that I am 
committed to the NRC's principles of good regulation. Those are 
independence, openness, efficiency, clarity and reliability. 
Furthermore I appreciate the need for regulatory predictability 
and stability. I am humbled by the importance of the task ahead 
and if confirmed commit to work tirelessly to professionally 
execute the Commission's vitally important mission.
    I have been privileged to serve our country for many years 
as a career nuclear submarine officer, as a counsel on 
Committee Staff Director for the House Armed Services Committee 
and as Principal Deputy Administrator of the National Security 
Administration. While I will have much to learn I am confident 
this prior management and leadership experience will serve me 
well if I am confirmed. I will add my experience as a senior 
congressional staff member and as a senior leader at the 
Department of Energy has given me a deep appreciation for the 
role of congressional oversight and the importance of your 
committee.
    If confirmed I commit to communications with you founded on 
integrity and responsiveness. Again, I appreciate the 
opportunity to appear here today, and I look forward to your 
questions.
    Thank you.
    [The prepared statement of Mr. Ostendorff follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
        
    Senator Boxer. Thank you very much.
    Dr. Apostolakis, you mentioned your work with the NRC's 
Advisory Committee on Reactor Safeguards, and you appreciated 
conducting all the committee's meetings in public. Do you 
believe the NRC would benefit from conducting its meetings, 
deliberations and votes in public?
    Mr. Apostolakis. Senator, I am aware of the fact that 
Chairman Jaczko is promoting this idea. I am very pleased with 
the way the ACRS has conducted its business. I think we write 
letters to the Commission in public, we argue about individual 
words and commas and periods. I think that has been very, very 
beneficial both to us and the stakeholders. Now, with respect 
to the Commission itself, in principle I think it is a good 
idea. I would like to understand a little better what the 
downside might be, because I haven't really studied the matter. 
But in principle I am for it.
    Senator Boxer. How about you, Mr. Magwood? Open and 
transparent meetings?
    Mr. Magwood. I agree with my colleague. In principle I 
agree with that direction. The one concern I would have is how 
it affects the quality of decisions that are made. The current 
process at NRC involves an iteration of documents between the 
various parts of the Commission staffs. That is an opportunity 
to really delve into issues in a great deal of detail. I would 
hate to lose that in the process of having open meetings.
    But if there is a way of getting both benefits, I would 
certainly be in favor of it.
    Senator Boxer. So let me understand that. You are saying 
that you think it might not be as productive if you were 
looking at an analysis, and it was in public? Why would that 
be?
    Mr. Magwood. No, my point is that I think it is important 
to do the analysis, even if it takes a long time, on a textual 
basis. And if there is a way of actually arriving at decisions 
in public I am all in favor of that. I think that is a good 
thing to do. I want to make sure that we don't lose the detail.
    Senator Boxer. Let me just make sure that everyone 
understands my question. I am not talking about doing the 
analysis in public. I am talking about the meetings in public 
and your deliberations and your votes in public, once you have 
gotten the analysis.
    Mr. Magwood. In principle I don't have a problem with that.
    Senator Boxer. Mr. Ostendorff.
    Mr. Ostendorff. Chairman Boxer, I support the NRC's 
openness and transparency. I am aware that there are some 
discussions currently underway with existing Commissioners to 
look at some changes in the voting procedures specifically. In 
principle, I support openness and those activities. I would 
like to have an opportunity once I am confirmed to more fully 
discuss that and better understand the exact issues.
    Senator Boxer. I appreciate that, all of you using the 
words, in principle. But to me either it is open or it is shut. 
So I am going to say to you, just from you to me and me to you, 
I don't speak for anybody else, I am going to be watching this. 
Because I think that, yes, analysis and all the hard work have 
to go on between the folks who you rely on, and you should be 
able to probe that. But once it gets to the meetings and all 
the information is out there I believe this needs to be shared 
with the public. I think it is important not just to agree with 
it in principle but in practice. So I will be following that 
myself.
    Now, I have a question here for all three of you from 
Senator Reid. You can just answer it yes or no. If confirmed, 
would you second guess the Department of Energy's decision to 
withdraw the license application for Yucca Mountain from NRC's 
review?
    Mr. Magwood. No.
    Senator Boxer. OK.
    Anybody else?
    Mr. Apostolakis. No.
    Mr. Ostendorff. No.
    Senator Boxer. Thank you. I think he will be very pleased 
with that.
    And the last question I have is on re-processing. I went to 
France, La Hague; I don't know how many of you have been to La 
Hauge at all. When I went there, I was very open to seeing how 
this new technology could work. When I left there I realized 
that it is far more controversial than it might appear, 
because--and I am sure, Mr. Magwood, you saw that--this 
material is so hot, so hot that even though it is contained in 
a small container, it needs this huge burial site. In La Hague 
they are going to have to ship back this waste to the countries 
that sent it in the first place after 20 years.
    So I guess my question is to all of you--you can do it in 
writing, I don't want to take a lot of time--but do you think 
there needs to be more work on perfecting this type of a 
technology? Or do you think it is just ready to roll?
    Mr. Apostolakis. Senator, I really don't know much about 
the recycling, so I cannot give you an answer.
    Senator Boxer. That is fair.
    Mr. Magwood.
    Mr. Magwood. Well, the work I did at DOE was predicated on 
the idea that we did need to do a lot more research to develop 
better technologies and more efficient and less proliferation 
prone. So my personal thinking is that more work needs to be 
done.
    Senator Boxer. How about you, Mr. Ostendorff?
    Mr. Ostendorff. Chairman Boxer, I am not familiar with this 
particular technology. I would like to have a chance to look at 
it and get back to you.
    Senator Boxer. OK. At some point I think it would be 
interesting to visit that site. It has more armed guards than 
most of our military bases there. It is very--it is 
enlightening, I would say, to go see it.
    Let me just say to all of you how much I appreciate your 
service. Not only the service currently, but your prior service 
in other capacities for the Government, whether it was in the 
military or DOE or on a special commission.
    Mr. Magwood, I have a few letters here from people who 
don't support your nomination. The reason they say that is that 
when you were over at DOE, they felt that you were pushing 
nuclear power. Well, as I read in the opening statement, there 
is a very big difference between the DOE and the NRC. In one 
job, if you are working to promote a certain type of power, 
whether it is wind, which I know Senator Alexander doesn't 
prefer, whether it is solar, whether it is nuclear, whether it 
is clean coal, whether it is offshore oil drilling, whatever it 
might be, the DOE's job is different from the NRC.
    So I guess just from my own sensibility, you could state 
your sense of the difference between being at DOE and being on 
the NRC. If you could put it in your own words for me.
    Mr. Magwood. The role we had at DOE was clearly to remove 
the barriers that made it very difficult to build new nuclear 
power plants in the United States. I think we accomplished a 
lot in that direction. The role of NRC is to respond to the 
public need for safety now that that door has been opened and 
others are walking through it.
    So I think it is an appropriate role for Government to 
remove the barriers, and I think it is an appropriate role for 
Government to make sure that once the barriers are removed that 
things are done responsibly. It is my firm opinion that the 
best service to the country and to the nuclear industry is to 
set a very, very high standard for safety and to do so in a way 
that the public has a great deal of confidence.
    Senator Boxer. Well, Mr. Magwood, I think you were very 
eloquent on that point. Thank you very much.
    Senator Inhofe.
    Senator Inhofe. Thank you, Madam Chairman.
    Captain Ostendorff, during the introduction, is that your 
son seated behind you?
    Mr. Ostendorff. I have two sons. This is my son Jeff right 
here.
    Senator Inhofe. Which one was at Fort Sill?
    Mr. Ostendorff. My son Chuck. He is not here today.
    Senator Inhofe. When he deployed, he probably deployed, my 
guess is from Fort Hood with the Lava Thunders. Would you 
happen to know that?
    Mr. Ostendorff. He actually deployed with the Second 
Stryker Cavalry Regiment out of Vilseck, Germany, deployed to 
Iraq in the summer of 2007.
    Senator Inhofe. Good. I think this is significant, and 
several people have said, this is the first time in 30 years 
that we have new plant applications. I think now, as I had 
shared originally, there were 18, 5 have been suspended. So you 
are talking about 13 applications. Have you had time to think 
through how you are going to handle these different classes, so 
that you can expedite these? My concern, as I said in my 
opening statement, of course, we want all safety complied with 
and all that. We want to get these things done.
    Have you given any thought--any of the three of you--as to 
how you are going to handle that many and their different 
classes? And any kind of prediction as to when you might get 1 
or 2 or 13 of them completed?
    Anybody.
    Mr. Ostendorff. Senator, I will speak for myself and ask my 
colleagues to chime in. I think we have received several 
briefings by Commission staff in preparation for this hearing 
and in preparation for potential service in the Commission 
about the licensing process, the time schedules, the milestones 
and some expectations.
    I would say that I think it is important for a Commissioner 
to take a hard look at ensuring that progress is being made 
toward providing rapid but thorough response to the 
applications, ensuring the applications themselves are 
completely technically vetted while bringing some pressure on 
the system to move forward appropriately.
    So I think there is kind of a balance. It goes to Senator 
Carper's statement earlier about one foot on the accelerator 
and one foot on the brake pedal, making sure that we are 
pushing forward to get the system to work but also ensuring 
that that does not result in any shortcuts that might lessen 
safety.
    Senator Inhofe. That's good. Any other comments? That 
pretty much may speak for the three of you.
    Mr. Apostolakis. I have seen what the Commission has been 
doing the last several years in the area of new reactors. I 
think the process that is in place is good, design 
certification, early site permits, and finally the combined 
license. As with anything new, as you said, Senator, for 30 
years we have not licensed a new reactor; there will be some 
glitches here and there that we will have to fix.
    But I think that the process in place is good. And I have 
seen the stuff accelerating other licensing actions, like power 
upgrades, and license extensions. So I am confident they will 
do their best also to grant to accelerate the licensing process 
for new reactors. But I agree with my colleague.
    Senator Inhofe. And the other thing I was thinking about is 
that the three of you constitute a majority of this Commission. 
That can be good or bad. You don't come in with preconceived 
notions. Those three out of five are new people, all qualified.
    What I would suggest, I will be suggesting to Senator 
Carper, that he do something like I did back in 19 whatever it 
was, 1997, I guess, when I chaired this subcommittee, that is 
schedule some meetings with some goals. Decide about how far 
along you want to be at different times so that we will be 
brought into the loop on this. I am sure that you would agree 
that is a good idea. If not, I can get this in writing from 
them.
    So that is what you might be anticipating that we will be 
wanting to know as you move along, how you are coming, how many 
applications you are looking at, what your progress is.
    Thank you, Madam Chair.
    Senator Boxer. OK, I am going give you the gavel, because I 
have a meeting.
    Senator Carper [presiding]. Thank you, Madam Chair.
    Let me just again welcome you and thank you for your 
participation today. I know a number of my colleagues have 
expressed reservations to me over the last year that the new 
Administration was not really serious or embracing nuclear 
power as one aspect of reducing our dependence on fossil fuel, 
reducing our dependence on foreign oil, cleaning up the air. I 
think Senator Alexander has already said this in so many words, 
but just in the last several weeks to have heard what the 
President said on the floor of the House of Representatives in 
the State of the Union address, the importance of nuclear 
energy and embracing it, what we have seen in his budget 
proposal, it puts our country's money where his mouth was that 
night.
    And to again see the strength of these nominees, it is very 
encouraging for those of us who believe that nuclear power is 
an important component of our power generation and energy 
generation in this country. But it needs to be an even more 
important one. So this is a good, very strong team here.
    I am going to ask if each of our nominees would each take a 
minute or so and just talk with us in your own words, from your 
hearts, what do you see as some of the biggest challenges that 
the NRC is facing this year and in the next several years? What 
are some of the biggest challenges that you see the NRC facing 
this year and in the next several years? How would you 
strengthen the NRC as it prepares to take on those challenges?
    Mr. Apostolakis. I believe it has been mentioned several 
times that the role of a regulator is not always pleasant. I 
think a challenge is to be perceived as fair by all 
stakeholders, the industry and maybe the public interest 
groups. And I think that is a challenge that the Commission 
should continually try to achieve. I believe the number of 
applications for new reactors will be a challenge. The numbers 
we hear now are on the high side, I believe. And if they all 
come together the agency will need to--will be challenged to 
meet its obligations. I believe those two are probably the two 
in my mind right now.
    Senator Carper. And the second half of my question is, if 
confirmed, how would your membership on the Commission better 
prepare the Commission to meet those challenges?
    Mr. Apostolakis. I intend to be actively involved in 
meeting both of these challenges. I do believe the agency is 
very open and transparent. We may want to become more 
transparent by deliberating in public. I believe making sure 
that licensing actions are taken in a timely fashion is a very 
important function. So I will also try to contribute to that.
    Senator Carper. Thank you, sir.
    Mr. Magwood.
    Mr. Magwood. Senator Carper, I think that it is worth 
noting that the last U.S. nuclear power plant to get started 
and actually reach completion was started in 1973. As a result 
we have a situation in the United States where millions of 
people who have the expertise to build these plants are at or 
near or will pass retirement age. The expertise that exists in 
this country is spread very, very thin between the industry, 
the vendors, the Government and the Nuclear Regulatory 
Commission.
    So I think one of the big challenges we have over the next 
5 to 10 years is going to be sharing that talent with the ever 
expanding requirement and finding a way to transfer the 
knowledge and experience so that people who are at or near or 
beyond retirement age to these younger people who are just 
coming into the work force.
    One of the things I did at DOE that I am very proud of is I 
worked very hard to expand the academic opportunities for 
students to get into nuclear engineering. There is now a 
significant number of students coming into the work force. But 
now we have to train those people. I fully intend to spend a 
lot of my time working with the NRC staff to try to transfer 
the knowledge and experience of these people to the younger 
people and that we are able to carry out our mission 
effectively.
    Senator Carper. Thank you.
    Captain Ostendorff.
    Mr. Ostendorff. Senator, I would agree with the comments of 
my colleagues. I would like to focus on just maybe two 
challenges and then talk about my background. The challenges I 
think that are most critical would be to simultaneously ensure 
the safe operation of our existing plants, many of which have 
some aging issues. There are some buried piping concerns, some 
license extensions to go from 40 to 60 years. Our existing 
fleet has some technical issues that have to be decided upon by 
the Commissioners after receiving proper technical support from 
the staff.
    At the same time, looking at new plants. Balancing 
attention and making sure we have our eye on the ball for both 
sides of the equation, existing plants and new licenses, will 
be a big challenge.
    As far as my own background, what I think I might bring, I 
have had significant technical experience working with nuclear 
reactors in the submarine force. I have been around, working as 
a staff member for Congress, I think in a bipartisan fashion, 
to get to solutions, to get to decisionmaking. The Defense 
Authorization Bill process for a number of years. And I have 
had significant management experience. I am looking forward to 
bringing those three experiences in my background to bear.
    Senator Carper. Good. Thank you, Captain.
    Senator Alexander, I believe you might be next.
    Senator Alexander. Thanks, Senator Carper.
    Let me ask each of the three of you a question about used 
nuclear fuel. I am tempted to ask you if you believe nuclear 
reactors can be operated safely but I think I would insult each 
of you if I did that. Mr. Ostendorff lived on top of one for a 
lot of his life. I assume you wouldn't be taking these 
positions if you didn't think they could be operated safely.
    But let me ask you about used nuclear fuel, which is a 
concern that many people have. Mr. Apostolakis, how many years 
do you think that used nuclear fuel can be safely stored onsite 
while research determines the best way to perhaps recycle it or 
what its ultimate use could be?
    Mr. Apostolakis. Senator, the prevailing thinking, and I 
don't have any reason to disagree with it, is that it is 
several decades. Some people are talking about even 100 years.
    Senator Alexander. Mr. Magwood, what is your opinion?
    Mr. Magwood. In principle certainly I think you can store 
spent fuel safely onsite for 50 or 100 years. But one thing I 
highlight is that when we first started storing spent fuel on 
reactor sites, no one was thinking it was going to be there 100 
years. So I think we have to go back and take a look at what we 
have in place now and assure ourselves that it is able to stay 
in place for another 50 years if necessary.
    Senator Alexander. Mr. Ostendorff.
    Mr. Ostendorff. Senator, the briefings I have had from NRC 
technical staff have indicated a range of 50 to 100 years.
    Senator Alexander. Two of you said that you didn't have an 
opinion really about recycling, and I understand that, because, 
well, let me--I do, and Dr. Chu does, which is that during that 
time we should accelerate research and development for 
recycling of used nuclear fuel and find a better way of 
reducing its mass and its life than now exists, for example, in 
France, and that we have ample time to do that.
    Let me ask this question. One of the elements of a decision 
that the Commission makes when it issues a license is whether 
it has confidence that the Federal Government is willing to 
live up to its responsibilities that it will take 
responsibility for the used nuclear fuel. Recently, we have all 
commented on the President's call for a new generation of 
reactors, his appointment of a commission to take whatever 
steps are appropriate on used fuel, your appointment, the loan 
guarantees, all those things. Mr. Magwood, are you comfortable 
that the Federal Government--or do you have confidence the 
Federal Government will ultimately accept its responsibility 
for dealing with used nuclear fuel?
    Mr. Magwood. The Federal Government signs contracts with 
utilities to take spent fuel eventually. It doesn't specify 
where it is going to take the fuel or how it is going to 
dispose of it. It just makes a commitment to take the spent 
fuel. And I think those commitments are solid enough to 
proceed, yes. I do have faith in the Government's commitment.
    Senator Alexander. To proceed with an otherwise appropriate 
new license?
    Mr. Magwood. With some appropriate disposition. And we have 
time, as you pointed out, to decide exactly what that is going 
to be.
    Senator Alexander. Mr. Apostolakis, what is your thought 
about that?
    Mr. Apostolakis. I thought the issue of confidence was that 
eventually there will be a solution, a permanent solution. And 
I do have confidence in that.
    Senator Alexander. Thank you.
    Mr. Ostendorff.
    Mr. Ostendorff. I concur with my colleagues here.
    Senator Alexander. Thank you very much.
    Now let me ask you just an overall question. All of you 
have broad experience with the nuclear industry. Why is it that 
the United States, which has invented nuclear power plants and 
gets 70 percent of its carbon-free electricity from them, at a 
time when we want lots of low cost electricity and are 
concerned about climate change, how is it, why is it that China 
is starting a plant every 3 months and the UAE and India and 
Great Britain and everybody else in the world seems to do it, 
and we haven't started a new plant in 30 years? What could you 
do as a Commissioner of the NRC appropriately to create an 
environment in which the United States could catch up with its 
own invention?
    Mr. Apostolakis.
    Mr. Apostolakis. I think a combination of factors 
contributed to this slowing down of the industry in the United 
States. First of all, we do have, at least in the last 30 
years, alternative sources of energy. So the pressure of using 
nuclear power was not that great. I think Three Mile Island and 
Chernobyl did not help. Three Mile Island not only because of 
its consequences, which were really next to nothing, but there 
was a tremendous regulatory activity that followed Three Mile 
Island that created regulatory instability and imposed 
tremendous costs on the industry.
    This was a natural reaction, I think. I don't think there 
are any bad guys here.
    And the other thing is of course that maybe our processes 
here are a bit more open than in other places, where they can 
make decisions much faster.
    Senator Alexander. Mr. Magwood.
    Mr. Magwood. I think that the biggest reason was because we 
simply didn't need to build much of anything in the last 30 
years. We weren't just not building nuclear plants, we weren't 
building coal plants, we weren't building lots of things for 
many years. That is because we had a large over-supply of 
electric capacity left over from the 1970s that really has just 
gone away in the last couple of years.
    I think that what we can do as NRC Commissioners, if we are 
confirmed, is to do our job well, to build the public 
confidence that the Government is doing its job to oversee 
safety, to provide a framework by which the industry can 
implement new nuclear power plants. That is what we can do. If 
we do what we are supposed to do, that is the best thing for 
the construction of new plants in this country.
    Senator Alexander. Mr. Ostendorff.
    Mr. Ostendorff. Senator, I would say that the 
predictability and stability of the regulatory process is 
critical. That is part of our jobs if we are confirmed. In 
order for industry to be able to make some sound business 
decisions, strategic planning decisions, so to speak, we need 
to have an understanding of what the framework is, not just 
next month, but next year, 10 years, 20 years down the pike. To 
the extent that we can advance the stability and predictability 
issues, as Commissioners, I think that will be a significant 
achievement.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Carper. You are welcome. Thanks for your leadership 
on these issues.
    Senator Cardin, thanks for yours as well.
    Senator Cardin. Mr. Chairman, thank you very much.
    Again, let me thank our three nominees. I was impressed by 
your backgrounds and your careers before you appeared here 
today. It has only been reinforced by your responses to the 
questions. So once again, thank you.
    I am going to follow up on Senator Alexander's and I think 
Senator Inhofe's point, and Mr. Ostendorff, your last point 
about predictability--I had a chance to question Dr. Chu when 
he was before the committee as to whether it is reasonable for 
us to expect that we can expedite the process for new nuclear 
power plants, that to have to wait 10 years to try to get a 
plan done is unrealistic. Investors aren't going to invest in 
that. You need predictability, as Mr. Ostendorff said. You need 
a process that does not compromise public safety. We understand 
that. We want to make sure that all of the procedures are 
followed.
    But you need to have a process in place that leads to a 
conclusion. And it has been so long, there is not a confidence 
that that is in place in our country. We developed the 
technologies to have safe nuclear power, and we obviously can 
get it done. But it requires a Nuclear Regulatory Commission 
that is committed for the process to work.
    I questioned Dr. Chu as to what is a reasonable length of 
time. He said he would like to answer that question, but the 
NRC is an independent commission. So he doesn't have that type 
of authority. But you all will have that type of authority once 
you are confirmed. I just urge you to use that carefully so 
that we can move forward with nuclear capacity in this country 
and do it in a safe way.
    Mr. Magwood, the other point that you mentioned, I think it 
is important, I think the commission can play a role here, we 
have to develop the underpinnings of a nuclear industry in this 
country that we sort of lost over the last 30 years, whether it 
is in the development of technology on our college campuses or 
whether it is the manufacturing capacity to be able to 
manufacture here in America the component parts for a nuclear 
facility, or whether it is how we deal with waste. You are 
correct, the thought was that it was going to be a relatively 
temporary storage. Well, now we are looking at it being a 
little bit longer term. So we need to make sure that we have 
the technologies and productions in place to be able to deal 
with waste.
    And then last, the point that has been raised, Mr. Magwood, 
you had the most experience of any of the three, is on the re-
processing issue. There is a lot of concern that re-processing 
could lead to proliferation. And we need to be able to have 
confidence if we are going to be doing re-processing that it 
can be done in a way consistent with what President Obama has 
said, and I think all of us agree that we want to prevent the 
proliferation of nuclear weapons in this world. So I really do 
think that you all are entering this public service at a 
critical point in our Nation's history as to whether we will 
get it right, whether we can put in place in a realistic time 
period, so investors and utilities can plan and invest, and our 
Nation can have an energy policy that not only makes us self-
sufficient from the point of view of producing electricity but 
also does it in an environmentally friendly way, keeping jobs 
here in America.
    So I just would urge you as you move forward in this, that 
your job is more than just looking at an application that comes 
down the road, but to develop a predictable system, where 
investors feel confident in, and develop a nuclear industry in 
America that will keep jobs here, keep technology here, and 
make sure we do it in a safe way, obviously first and foremost 
is public safety. But do it in a way that we can have a nuclear 
industry in America.
    You all nodded as I was speaking.
    [Laughter.]
    Senator Cardin. I just want the record to reflect, I got a 
lot of nods.
    I do have another 47 seconds, if anyone wants to just--Mr. 
Magwood, since you are from Maryland, tell me what I want to 
hear here.
    Mr. Magwood. I think that there is a need, as you pointed 
out, for investors to have some confidence about how long it 
would take to deploy these plants. But I think that everyone 
should understand that we haven't done this in a long time. It 
is not just the Government side that needs to figure out how to 
get this right; it is also the industry side. The two sides 
working together are going to take a little bit longer in this 
first go-around than maybe everyone would like. But I think 
that we will learn a lot from doing it.
    So the next time that we get to applications, perhaps at 
some point in the future, I think it will be a lot more 
efficient process, a lot more predictable.
    Senator Cardin. I think that is the right answer. I think 
the industry expects that we are sort of doing this almost for 
the first time again. But I hope that the path that we follow 
will provide the predictability that Mr. Ostendorff mentioned, 
the confidence in safety that the public will demand so that we 
can in fact have nuclear power as part of our energy for the 
future of this Nation.
    Thank you.
    Thank you, Mr. Chairman.
    Senator Carper. Senator Boxer, I will report that we are 
down to Senator Klobuchar over here, and the gavel is yours. 
Thanks.
    Senator Klobuchar. Thank you very much.
    My first question actually is about a bill that a number of 
us, a bipartisan group of Senators, are supporting, offered by 
Senator Mark Udall, to increase support for R&D of small, 
modular nuclear reactors. They could be manufactured on 
assembly line and therefore could be much cheaper than the 
large scale reactors that we are used to. Any thoughts on the 
prospect of these types of nuclear reactors becoming more 
mainstream?
    Anyone can take it.
    Mr. Ostendorff. Senator, I understand that the small, 
modular reactors are being looked at by industry. There are 
several different designs being considered. I also understand 
that the existing Commission has already taken a look to ensure 
that its licensing procedures are set up and ready to receive 
any licenses that they may receive for a small reactor. And I 
think it is something we will be watching very closely over the 
next few years as industry comes forward with some ideas. 
Hopefully there will be some R&D efforts that will help advance 
those initiatives.
    Senator Klobuchar. Thank you. One of the things that has 
happened because of the lack of new nuclear plant construction 
over the past decades is that there is also a lack of domestic 
nuclear engineers. That was one of the reasons that I co-
sponsored the America Competes Act of 2007, which supports 
nuclear science programs. Anyone want to comment on what the 
status is of our domestic nuclear work force and what can we do 
to improve our work force expertise in this area?
    Mr. Apostolakis.
    Mr. Apostolakis. Thank you. Well, what we have seen at MIT 
the last 5, 6 years is the number of domestic applicants to the 
department has increased, and the quality also of the 
applicants has increased. From what I heard, the same thing is 
happening at other universities around the country.
    Now, is the number adequate? I don't know. But it takes 
some time to reach that level.
    Senator Klobuchar. Mr. Magwood.
    Mr. Magwood. As I mentioned earlier one of the things that 
we were very proud of at DOE was helping to sort of spur the 
rejuvenation of some of the nuclear engineering programs. When 
I came into the Office of Nuclear Energy in 1998 there were 
about 480--I remember this number, because it was so 
startling--480 students in the entire country taking nuclear 
engineering. Today, I understand it is about 2,200. So there is 
a huge upsurge. I think that we are actually in pretty good 
shape when it comes to that aspect of it.
    But the question is how do you get these people trained in 
practical ways to really carry out the various missions.
    Senator Klobuchar. When there has been this not actual 
construction going on, to the extent. Right. Like many nuclear 
power plants, we have two in Minnesota, actually, but one of 
them, Prairie Island Nuclear Power Plant, is the closest plant 
to an Indian reservation in the country. It is literally right 
next to it, adjacent. And it has had to store its radioactive 
waste onsite in dry casks above the ground, potentially 
creating environmental and security risks. What do you see as 
the short and long term solutions to the problem of nuclear 
waste storage?
    Anyone want to take that one?
    Mr. Ostendorff. Senator, I think just recently, and Senator 
Alexander mentioned this in his remarks, the Administration has 
stood up a blue ribbon commission. It was announced, I believe, 
the week before last, as far as its membership, that will be 
looking at alternatives for high level waste storage on a 
permanent basis. So it looks like there will be an effort to 
look at alternatives to prior plans. I think we are optimistic 
that there are technical solutions here. I don't think any one 
of us believes that there is a technical problem for which 
there is no solution. But I think we are optimistic that this 
commission will highlight potential options in a very 
constructive way and hopefully in a short time period.
    Senator Klobuchar. One last question. As part of NRC's 
efforts to streamline nuclear power plant construction, one 
change has been to certify standard plant designs, which will 
be effective for 15 years, and will be acceptable, independent 
of the specific site. Is there any concern that certain designs 
would not be effective in various regions? To me this sounds 
like a smart idea of how to expedite things. But just any 
comments that you have about this. Because as you know, the 
majority of new designs approved by the NRC have never been 
built or operated.
    Mr. Magwood.
    Mr. Magwood. Well, I think what I would say is that even 
though there is a truly, I think, important effort to 
standardize the designs there are still lots of designs. So 
utilities have a pretty wide choice of different designs to 
choose from. I know that some have chosen plants because of the 
size and the impact on the thermal output that they would have 
on local lakes. There are different characteristics of all the 
plants. I think there is enough of a variety out there for the 
utilities to choose technologies that best suit their 
circumstances.
    Senator Klobuchar. OK. Thank you very much, all of you.
    Senator Boxer [presiding]. Senator Merkley.
    Senator Merkley. Thank you very much, Madam Chair. If this 
question has been asked then please let me know, and I will 
simply refer to the record and gain that information. We have 
in Oregon a plant that was retired a few years ago. But it 
still has a tremendous amount of fuel rods stored onsite in dry 
casks. As my colleague from Minnesota was noting, these storage 
locations are across the country. What kind of security risks 
do they pose, and to what degree is the Nuclear Regulatory 
Commission a body that can help address that challenge?
    Mr. Apostolakis. Senator, I know that the safety and 
security of these pools has been a matter of intense attention 
both by the Commission and various stakeholders. I have seen 
various studies that show that the pools are safe; other 
studies that dispute those. I don't know the details of all 
these to tell you to what degree these things are safe. But as 
long as the Commission allows them to be there the presumption 
is that they are safe.
    Senator Merkley. Let me just comment that this shouldn't be 
an issue of presumption. It should be an issue of intense 
analysis and changing the policy if these comprise a risk to 
our Nation to have these dry casks spread around the country 
with very diverse security measures protecting them and the 
possibility of explosions, conventional explosions spreading 
nuclear materials through the Nation. I am very disturbed by a 
notion that we should just presume that they are safe.
    Mr. Apostolakis. No, no, no, that's not what I meant. All 
these analyses are being done, and I am sure they will continue 
to be done. My only point is that an outsider, I would say that 
if they are allowed to be there, the Commission has approved 
them. So as a citizen, I have to presume they are safe.
    Now, as a Commissioner, if confirmed, I may not take that 
attitude. I may look more carefully at the various studies, 
maybe ask for more studies, until I convince myself that they 
are indeed safe enough and secure enough.
    Senator Merkley. Thank you.
    Mr. Magwood, you have been a proponent of nuclear power. Do 
these storage sites pose a significant risk, and what can the 
Commission do to address the challenge?
    Mr. Magwood. The challenge of the spent fuel storage?
    Senator Merkley. Yes.
    Mr. Magwood. I think that I mentioned a few minutes ago, I 
think that with the Administration's move toward a new 
decisionmaking progress regarding the disposition of spent fuel 
it is quite possible that some of the spent fuel storage 
facilities may have to be around for decades. As I mentioned a 
few minutes ago the United States wasn't thinking that spent 
fuel would stay on utility sites for 50 or 100 years. Now that 
that may be the case we have to go back and look and make sure 
that everything that is in place today is satisfactory for long 
term storage, and if it is not to take corrective actions as 
soon as possible.
    Senator Merkley. Let me turn to another question. A few 
years ago, in 2002, a hole was discovered in a reactor head at 
the Davis-Besse Plant in Ohio. It surprised a lot of folks that 
that was able to happen. Does that provide any insights on the 
type of oversight that is needed in terms of reactor 
operations?
    Mr. Ostendorff. Senator, my understanding is you are 
referring to the reactor vessel head corrosion problem, the 
leaks.
    Senator Merkley. Yes.
    Mr. Ostendorff. It was my understanding, and I have not 
been involved in the commercial nuclear industry, but that was 
a big wake-up call that indicated that there had been a sense 
of complacency with respect to investigating and taking care of 
action to stop leaks that the source. That is a very serious 
material issue, but it also has broader safety implications. I 
think there has been a lot of lessons learned and actions taken 
subsequent to the Davis-Besse incident that have been positive. 
At the same time the nature of these operations for existing 
plants is such that you can never take your eye off the ball. 
You have to every day continue to enforce that safety culture 
and have high expectations for technical competence and 
accountability.
    Senator Merkley. Thank you all very much.
    Senator Boxer. Thank you, Senator.
    Now, everyone has had one round. I understand Senator 
Carper would like to ask a couple more questions. Senator 
Alexander, do you have any more questions?
    Senator Alexander. I think I will just listen. Thank you.
    Senator Boxer. OK.
    Senator Carper.
    Senator Carper. Dr. Apostolakis, here is a question for 
you. Let's go way back in time, Three Mile Island and think of 
the lessons learned that flowed from Three Mile Island that 
were relevant then but are still relevant today.
    Mr. Apostolakis. I think that was a major milestone in 
nuclear power development in history. It showed that some of 
the hypothetical accidents that analysts were talking about in 
fact could happen to some extent. The core could be damaged. 
The containment system, though, worked very well. It contained 
the amounts of radioactivity that were released from the core. 
The psychological impact of the accident on the public and the 
professionals in nuclear engineering was tremendous.
    I believe both the industry and the Commission learned a 
lot from the accident there. A lot of new regulations were 
established. And I believe we learned from it, and the industry 
is safer as a result of it.
    Senator Carper. Any other nominees want to respond to that? 
Lessons that are still relevant today.
    Mr. Magwood. I would just make a brief comment. One of the 
major lessons learned, not just from Three Mile Island, but 
through a lot of the problems and operations utilities had 
during the 1970s and early 1980s was that--the lesson learned 
was that management counts. Excellence in management at utility 
sites makes up for any--I should say, makes it possible to 
operate nuclear power plants. Whereas if you simply rely on 
technology you will find that mistakes will always be made.
    I think the most important thing we learned over the last 
several decades is good management, good people, well trained 
people. It always comes back to people. I guess I would rather 
have an excellent staff of great managers operating a so-so 
technology as opposed to a great technology operated by people 
that didn't know what they were doing. That is, I think, one of 
the big lessons we learned.
    Senator Carper. Thank you.
    Captain Ostendorff.
    Mr. Ostendorff. Senator, one specific component I would 
mention is that of operator training. I think one of the 
lessons learned out of Three Mile Island is that the operators 
at the plant did not really understand what really was the root 
cause of the phenomenon they were observing, what were the 
indications, what caused those physical conditions. As a 
result, at least I saw it in the naval nuclear propulsion 
program, in the 5-year period after that accident, I saw an 
increased emphasis on operator understanding of the physical 
principles of heat transfer, fluid flow, reactor kinetics, to 
ensure that everybody really understood what was the 
theoretical basis and engineering basis behind the procedures.
    Senator Carper. All right, thanks.
    Let's talk a little bit about tritium. From time to time we 
have reports of leakage, and tritium being found in the water 
that surrounds some of our nuclear power plants. Most recently 
we have heard some reports out of Vermont Yankee that have 
raised some concerns there. Would you take a moment, I don't 
care who answers this, but take a moment to talk to us about 
tritium, what kind of threat does it pose to us as human 
beings? If it is in our groundwater, should it be in our 
groundwater? As I understand it trace elements are already in 
groundwater in a number of places. Just talk to us about the 
kind of threats it poses to human health in low quantities or 
high quantities. What should the NRC be thinking and doing with 
respect to these leakages?
    Mr. Apostolakis. I think the NRC should make sure that the 
buried pipes from which the tritium was leaking remain intact, 
that there should be programs of some sort or something in the 
regulations that will make sure that these pipes do not leak. I 
don't think that any leaks are acceptable.
    Senator Carper. Mr. Magwood. Captain Ostendorff.
    Mr. Magwood. One example I draw from my past experience 
when I think about this issue is a case in New York. We had a 
reactor in New York at the Department of Energy called 
Brookhaven National Laboratory that developed a tritium leak. 
All the analysis from all the scientists said the tritium leak 
posed no threat to human health, no threat to anything offsite. 
But what I learned from that experience was that that wasn't 
really the point. The point was that the public lost confidence 
in the ability of the Department of Energy to operate the 
facility safely. And as a result the facility was shut down, a 
very, very valuable piece of research equipment was lost to the 
country.
    When I think about these other cases we hear about around 
the country I think that people need to understand that the 
public views these kinds of problems as an indication of a 
deeper management problem at the plants. So one of the things 
that I will certainly do if I am confirmed is to make that 
point very clearly to people operating nuclear power plants 
that it isn't the point that it is not hurting anyone. The 
point is showing that you don't have your act together. That is 
the most important thing.
    Senator Carper. Thank you.
    Captain.
    Mr. Ostendorff. Senator, I would agree with my colleagues' 
comments and just add that the radiation hazard here is not 
external radiation to the body. It is an issue from a health 
perspective if tritium is ingested. So it is a real concern if 
it is present in the drinking water. But if tritium were just 
in my glass on the desk and I never drank that it would not be 
a radiation health hazard to me.
    That said, I completely agree with Bill Magwood about his 
comments on the public confidence and the public education 
aspects of ensuring that this is dealt with in a serious, 
concerted manner to resolve the issue.
    Senator Carper. Thank you all.
    Senator Boxer. Any other Senators? Well, I have just one, a 
couple of questions I have to ask you, for all nominees. And I 
will ask you each to say yes or no.
    Do you agree, if confirmed by the Senate, to appear before 
this committee or designated members of this committee and 
other appropriate committees of the Congress, and provide 
information subject to appropriate and necessary security 
protection with respect to your responsibilities?
    Mr. Apostolakis. Yes, I do.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Senator Boxer. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
communication are provided to this committee and its staff and 
other appropriate committees in a timely fashion?
    Mr. Apostolakis. I do.
    Mr. Magwood. Yes.
    Mr. Ostendorff. Yes.
    Senator Boxer. Do you know of any matters which you may or 
may not have disclosed that might place you in any conflict of 
interest if you are confirmed?
    Mr. Apostolakis. I do not.
    Mr. Magwood. No.
    Mr. Ostendorff. No.
    Senator Boxer. OK. And I understand Senator Merkley has one 
more question.
    Senator Merkley. Thank you very much, Madam Chair.
    I wanted to ask about the exploration of different designs 
that might inherently increase the safety of nuclear power and 
therefore also might reduce its cost. There is a group of 
engineers in Oregon working under the title New Scale Power. It 
is a complete redesign of a nuclear reactor, it creates 
essentially a silo in the ground. The reactor core is hung in a 
manner that reduces its vulnerability to earthquakes. It is all 
gravity-fed water systems, so there is no pump failure. It has 
the ability to remove the copper tubing design, if you will, a 
major issue that shut down Trojan, and replace it as a complete 
tubing replacement, almost like an element that is pulled out 
and inserted. Because it is below ground it may provide greater 
ability to provide protection from terrorist threats.
    Such designs, I am sure there are other groups around the 
country that have been looking at significantly different 
approaches. But to what degree does the Nuclear Regulatory 
Commission, in each of your visions should they be promoting or 
exploring designs that may differ substantially from commercial 
reactors of today but might hold promise for far greater 
security in the future?
    Mr. Magwood. I think this type of work is very important. 
As a matter of fact, New Scale began as part of a research 
program that I started back when I was at DOE. It is the type 
of research that really can set the stage for the longer term 
future. Today, there is a lot of work to do. But 10 years from 
now, 20 years from now, who knows. That may become the standard 
for nuclear power in the future. I think we have to encourage 
this, and I look forward to seeing these types of activities 
move into the commercial sphere.
    Mr. Apostolakis. I believe the Commission and its staff 
should be informed at all times on the activities that you 
mentioned, in Oregon and other places, and be prepared, make 
sure that the Commission and the staff are prepared to do a 
good review of an application when it comes to the Commission 
for a design certification or for maybe a combined license 
application.
    So as a Commissioner, if confirmed I will make sure that 
this happens.
    Mr. Ostendorff. Senator, I am no familiar with the New 
Scale design. But I will look into that if I am confirmed. I 
certainly think it is the Commission's job, writ large, to make 
sure that they are up to speed on the current thinking of 
industry and design engineers as to what might be in the realm 
of the possible and to be actively engaged in understanding 
technically what is being worked on so they are prepared to 
deal with a licensing application.
    Senator Merkley. Thank you.
    Madam Chair, do we have time for one more question?
    Senator Boxer. Yes.
    Senator Merkley. Mr. Magwood, I thought it would be useful 
to follow up on the Chair's statement on conflict of interest. 
Just for the record, has your consulting work with Secure 
Energy North America Corporation or Advanced Energy Strategies, 
any of those companies that you have worked for, are they in 
any, is there any possible projects underway that would come 
before the NRC that would pose any form of conflict of 
interest?
    Mr. Magwood. No.
    Senator Merkley. Thank you.
    Senator Boxer. Gentlemen, you have been very forthcoming. 
We are very appreciative. You have until next Tuesday, February 
16th, to submit the answers to our written questions. There may 
not be any; I may have one or two. As soon as we get those back 
it is my intention to work with colleagues to move your 
appointments very quickly. Again, we really want to thank you. 
I am sorry, we have until the 16th, you have until the 23rd. 
Thank you for the correction, Laura.
    And I want to just revisit a couple of things with 
colleagues here. Just a reminder, we do have a hearing this 
afternoon on two appointees. One is the Inspector General, EPA, 
and the other is the Appalachian Regional Commission and 
Northern Border Regional Commission. If Senator Alexander 
ascertains that the TVA nominees are in town, he had now asked 
if we could do the hearing at 4. So stand by for that.
    I also wanted to inform colleagues, and this is very good 
news for us, that AASHTO, which is the group that represents 
the State highway and transportation folks that we work with so 
closely at home, they have released a new report today, 
Senators. They are basically saying that the stimulus bill was 
very successful, that it created hundreds of thousands of jobs. 
They have it actually summarized here. And all the various 
projects, they say that they are asking for another jobs bill, 
and they are making the point that the infrastructure, although 
it was only about 6 percent of our bill, created about 25 
percent of the jobs. That is what they are saying.
    So it is a very good report. I won't put it in this record 
because this is a different subject. But anybody who wants to 
see this report, it is called Projects and Paychecks: a One 
Year Report on State Transportation Successes under the 
American Recovery and Reinvestment Act. I feel, since there has 
been so much controversy about whether we have--I don't 
understand how people could say you don't create jobs when you 
rebuild your infrastructure. It is counter-intuitive, and it 
turns out it is absolutely wrong to say that. They are looking 
at over 10,000 projects that were completed, they are looking 
at who the people are that got the jobs. I have this study here 
if you want to get your hands on it.
    I think that concludes everything. Remember, we are not 
going to have our hearings that we originally were going to 
have on Thursday and Wednesday. So we are going to do 
everything today and put off the others until we get back.
    Does anybody else have any questions, comments? If not, 
thank you so much. We stand adjourned. And to our friends at 
the table, thank you very much.
    [Whereupon, at 11:50 a.m., the committee was recessed, to 
reconvene later the same day.]

                                 <all>
</pre></body></html>
